HHS/OIG - Audit, "Audit of Libertyville Manor Extended Care Facility Provider Number 14-5344, Libertyville, Illinois," (A-05-00-00011)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Libertyville Manor Extended Care Facility Provider Number 14-5344,
Libertyville, Illinois" (A-05-00-00011)
September 25, 2001
Complete
Text of Report is available in PDF format (315 kb). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report provides the results of our audit of Libertyville
Manor Extended Care Facility (Libertyville), a skilled nursing facility.
We found that Libertyville was overpaid $301,603 for costs that are not reimbursable
according to Medicare guidelines and $205,334 for claims that did not meet the
Medicare eligibility and reimbursement requirements.  We attribute these
overpayments to the provider not following applicable Medicare cost reporting
principles and billing for therapy services that were not reasonable, medically
necessary, or documented in accordance with Medicare reimbursement requirements.
We recommended that the Fiscal Intermediary initiate procedures to recover the
total overpayment of $506,937.